OIG Investigative Reports, Student Loan Thief Chased Down
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
September 3, 2003
Contact
US Department of Justice
Office of the United States Attorney
District of Arizona
Public Affairs
Harriet Bernick
(602) 514-7736
Student Loan Thief Chased Down
PHOENIX, ARIZONA - The United States Attorney's Office for the District of Arizona announces today that JOHN E. CHRISTENSEN, (D.O.B. 4-21-41), of Mesa, Arizona, was arrested on September 2, 2003, as he tried to claim a student loan check in an assumed name at Mesa Community College.
The criminal complaint charges CHRISTENSEN with violating Title 20, United States Code, Section 1097 (Financial Aid Fraud), Title 42, United States Code, Section 408(a)(7)(B) (Social Security Fraud), and Title 18, United States Code, Section 1028(a)(7) (Identity Theft).
According to the complaint, Christensen used the identities of prison inmates serving lengthy prison sentences to apply for and receive federal student aid, and Social Security benefits.  On September 2, 2003, Christensen arrived at Mesa Community College to claim an student financial aid check under the name of Frank Morgan.  Staff at the Financial Aid Office recognized Christensen as the same person who had claimed an aid check under the name George Aikens, and called campus security.  Christensen took off on foot shortly after security arrived, but was caught by campus security and Mesa Police.  Christensen then produced identification in the name of Joseph Bruce, and had in his possession identification in the names Frank Morgan and Donald Joy, according to the complaint.  Student loans were applied for or obtained in six different names (Frank Morgan, Donald Joy, George Aikens, Joseph Bruce, Paul Reed, and John Dubalski), according to the complaint, at three local community colleges (Mesa Community College, Maricopa Community College, and Scottsdale Community College).
A conviction for Financial Aid Fraud carries a maximum penalty of five year(s), a $20,000 fine or both.  A conviction for Social Security Fraud carries a maximum penalty of five year(s), a $250,000 fine or both.  A conviction for Identity Theft carries a maximum penalty of 15 year(s), a $250,000 fine or both, and forfeiture.
A criminal complaint  is simply the method by which a person is charged with criminal activity and raises no inference of guilt.  An individual is presumed innocent until competent evidence is presented to a jury that establishes guilt beyond a reasonable doubt.
The investigation preceding the complaint was conducted the Office of Inspector General of the United States Department of Education, the Office of Inspector General of the Social Security Administration, the Mesa Police Department, and College Safety, Mesa Community College.
The prosecution is being handled by Daniel R. Drake, Assistant United States Attorney, District of Arizona, Phoenix, Arizona.
CASE NUMBER: 03-3196-PHX
RELEASE NUMBER: 2003-158
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov